OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID ACTIVITIES
IN LIMITED-PRESENCE
COUNTRIES IN EASTERN
AFRICA
AUDIT REPORT NO. 4-623-06-014-P
September 21, 2006




PRETORIA, SOUTH AFRICA
Office of Inspector General

September 21, 2006

MEMORANDUM

TO:                  USAID/East Africa Regional Director, Cheryl Anderson

FROM:                Regional Inspector General/Pretoria, Nathan S. Lokos /s/

SUBJECT:             Audit of USAID Activities in Limited-Presence Countries in Eastern Africa
                     (Report No. 4-623-06-014-P)

This memorandum transmits our final report on the subject audit. In finalizing our report,
we considered your comments on our draft report and have included your response in its
entirety as Appendix II.

This report includes five recommendations that USAID/East Africa: (1) establish
procedures to require that data quality assessments be completed for all indicators
published in annual reports in accordance with USAID policies and procedures, (2)
develop a schedule to complete data quality assessments for all assessments
determined in this report to be overdue, (3) revise and approve the performance
management plan for Burundi for the revised strategy in accordance with USAID policies
and procedures, (4) revise one of its Djibouti indicators, and (5) establish procedures,
which include a plan to make implementing partner quarterly reports more consistent
with USAID/East Africa’s results framework, to ensure that performance results for
indicators in limited-presence countries are supported and accurately reported in
accordance with USAID policies and procedures. In your written comments, you
concurred with all five recommendations.

In your response to the draft report, you provided evidence that final action has already
been taken on Recommendation No. 4. We therefore consider Recommendation No. 4
closed upon the issuance of this report. Additionally, you provided corrective action
plans for the remaining four recommendations.            Therefore, we consider that
management decisions have been reached on these recommendations. Please provide
the Office of Audit, Performance, and Compliance Division (M/CFO/APC) with the
necessary documentation to achieve final action on these recommendations.

I want to express my sincere appreciation for the cooperation and courtesy extended to
my staff during the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5
Pretoria 0181, South Africa
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objectives ................................................................................................................ 3

Audit Findings ................................................................................................................. 4

Has USAID/East Africa monitored activities in Burundi, Djibouti and Somalia in
accordance with USAID policies and procedures? ........................................................... 4

         Data Quality Assessments Were Not
         Always Completed................................................................................................... 4

         One Performance Management Plan
         Was Not Approved .................................................................................................. 7

         One Performance Indicator Was
         Multi-Dimensional.................................................................................................... 8

Has USAID/East Africa reported activities in Burundi, Djibouti and Somalia in
accordance with USAID policies and procedures? ........................................................... 9

         Performance Results Were Not
         Always Reported Accurately ................................................................................... 9

Evaluation of Management Comments ....................................................................... 14

Appendix I – Scope and Methodology ........................................................................ 15

Appendix II – Management Comments ....................................................................... 17
SUMMARY OF RESULTS
The Regional Inspector General/Pretoria conducted this audit to determine whether the
USAID/East Africa monitored and reported activities in Burundi, Djibouti and Somalia in
accordance with USAID policies and procedures. (See page 3.)

Generally USAID/East Africa monitored and evaluated activities in Burundi, Djibouti and
Somalia in accordance with USAID policies and procedures. For each country,
USAID/East Africa had:       (1) established performance indicators, (2) prepared
performance management plans, (3) set performance baselines, (4) collected
performance data, and (5) assessed data quality in some cases. As part of the
performance management plan, USAID/East Africa assigned staff with required
monitoring duties that included regularly conducted site visits and other activities in
conjunction with its implementing partners. However, we noted certain exceptions
concerning the lack of data quality assessments, a performance management plan that
was not finalized, and a performance indicator that was multi-dimensional. (See page
4.)

Generally USAID/East Africa reported activities in Burundi, Djibouti and Somalia in
accordance with USAID policies and procedures. For each country, USAID/East Africa
published annual reports, which included indicators and results frameworks for the
respective countries. These frameworks were based on integrated strategic plans with
approved strategic objectives and special objectives. As a result, USAID/East Africa
was not required to use the data base entitled Activities Not Managed In-Country
established for activities that are not part of a country strategic plan. However, we found
that performance results were not always adequately supported and not always reported
accurately in the annual reports for Burundi and Djibouti for fiscal year 2005. (See page
9.)

This report contains five recommendations to improve USAID/East Africa’s programs for
activities in Burundi, Djibouti and Somalia.      Those recommendations are that
USAID/East Africa:

•   Establish procedures to require that data quality assessments be completed for all
    indicators published in annual reports in accordance with USAID policies and
    procedures.
•   Develop a schedule to complete data quality assessments for all assessments
    determined in this report to be overdue.
•   Revise and approve the performance management plan for Burundi for the revised
    strategy in accordance with USAID policies and procedures.
•   Revise one of its Djibouti indicators.
•   Establish procedures, which include a plan to make implementing partner quarterly
    reports more consistent with USAID/East Africa’s results framework, to ensure that
    performance results for indicators in limited-presence countries are supported and
    accurately reported in accordance with USAID policies and procedures. (See pages
    6, 8, 9 and 13)

For Recommendation No. 4, USAID/East Africa concurred with the recommended action
and has revised the indicator in question so that it is now uni-dimensional. Accordingly,


                                                                                         1
final action has been taken on this recommendation. For Recommendation Nos. 1, 2, 3,
and 5, USAID/East Africa concurred and provided planned actions to address these
recommendations. Therefore, we consider that a management decision has been
reached on each of these recommendations. See page 14 for our evaluation of
management comments.




                                                                                  2
BACKGROUND
USAID’s traditional management model is an in-country mission with resident U.S. direct
hire and foreign national employees, as well as personal service contractors filling a
variety of program and administrative positions. However, USAID also funds new and
continuing activities through regional and pillar bureaus in countries where it does not
maintain a resident mission. These countries are referred to as limited-presence
countries.

Activities managed under an in-country mission are normally part of an integrated
strategic plan, with the performance results reported through USAID’s annual report
process for the respective country. However, for activities in countries that are not
included in a strategic plan and reported through the annual report process, which are
sometimes referred to as ANMIC (Activities Not Managed In-Country), USAID has
established a database to capture data associated with these activities. Activity
managers must use activity information sheets to record activity information in this
database. The purpose of these procedures is to ensure that information on all activities
undertaken in a given country is readily available for management and reporting
purposes.

USAID’s Automated Directives System (ADS) 203 states that operating units are
responsible for establishing systems to measure activity progress towards intended
results. The tools of assessing, learning, and sharing are interrelated through the
concept of performance management. This is defined as the systematic process of
monitoring the results of activities; collecting and analyzing performance information to
track progress toward planned results; using performance information to influence
program decision making and resource allocation; and communicating results achieved,
or not attained, to advance organizational learning and tell USAID’s story.

During fiscal year 2005, the USAID/East Africa located in Nairobi, Kenya managed
activities in three principal limited-presence countries─Burundi, Djibouti and Somalia.
For these three countries during fiscal year 2005, USAID/East Africa reported $14.4
million in authorized program funding.

AUDIT OBJECTIVES
This audit was conducted as part of the Regional Inspector General/Pretoria’s annual
audit plan. The audit was designed to answer the following questions:

•   Has USAID/East Africa monitored activities in Burundi, Djibouti and Somalia in
    accordance with USAID policies and procedures?

•   Has USAID/East Africa reported activities in Burundi, Djibouti and Somalia in
    accordance with USAID policies and procedures?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                       3
AUDIT FINDINGS
Has USAID/East Africa monitored activities in Burundi, Djibouti
and Somalia in accordance with USAID policies and
Procedures?
Generally USAID/East Africa monitored activities in Burundi, Djibouti and Somalia in
accordance with USAID policies and procedures. However, there were certain
exceptions in these three limited-presence countries (LPC) concerning the lack of data
quality assessments, a performance management plan that was not approved, and a
performance indicator that was multi-dimensional.

Nevertheless, in monitoring the performance of its activities in the subject LPCs,
USAID/East Africa had generally established the basic controls for monitoring activities
as required by USAID policies and procedures. For the three countries in question,
USAID/East Africa had:         1) established performance indicators, (2) prepared
performance management plans, (3) set performance baselines, (4) collected
performance data, and (5) assessed data quality, in some cases. As part of the
performance management plan, USAID/East Africa assigned staff with required
monitoring duties that included regularly conducted site visits and other activities in
conjunction with its implementing partners.

However, there are certain areas in which the performance monitoring system could be
improved. Data quality assessments were not always done, and in some cases were
not as complete as guidance required; one performance management plan was not
approved; and one performance indicator was multi-dimensional. These areas for
improvement are discussed below.

Data Quality Assessments Were
Not Always Completed

Summary: Due to weak internal control, as well as country access restrictions resulting
from security concerns, data quality assessments were not always completed for
performance indicators reported in two of the three limited-presence country annual
reports as required by USAID policy. Without data quality assessments, USAID/East
Africa did not have reasonable assurance that data quality met validity, timeliness, and
reliability standards, the lack of which could negatively affect decision making.

Results-oriented management decisions require valid, current and reliable information,
and the benefits of this approach depend substantially on the quality of the performance
information. Data quality assessments provide management with reasonable assurance
that data quality is sufficient for sound management decisions. The Automated
Directives System (ADS) 203 states that operating units shall, at regular intervals,
critically assess the data they are using to monitor performance to insure they are of
reasonable quality and accurately reflect the process or phenomenon they are being
used to measure. Data quality will be assessed as part of the process of establishing
performance indicators and choosing data collection sources and methods. The



                                                                                      4
guidance goes on to say that reassessments will be done as necessary, but at intervals
of no greater than three years; and that whenever possible, reasonable standards of
statistical reliability and validity should be applied.




Photograph taken by a RIG/Pretoria auditor in March 2006 of a live radio transmission of
USAID-supported radio programming, Radio Isanganiro, under the “Good Governance
Enhanced” Strategic Objective. (Bujumbura, Burundi)

For Burundi, no data quality assessments had been done for seven of the performance
indicators that we tested that were included in the Burundi annual report. For Somalia,
no data quality assessments had been done for the three performance indicators that we
examined that were in the Somalia annual report.

The lack of data quality assessments was the result of weak internal control—the
Mission did not require assessments to be completed prior to the publication of annual
reports. A contributory cause was country access restrictions due to security concerns.
In Somalia, ongoing civil unrest has severely limited access for USAID employees
making it difficult to complete the required assessments. In Burundi, travel has also
been severely restricted as a result of civil unrest. USAID/East Africa reported on some
of the indicators that were in the draft performance management plan in their fiscal year
2005 Burundi annual report, but they associated the data quality assessments with the
completion of the performance management plan and not the annual report. As a result,
the data quality assessments were not begun until February 2006. Although security
has been a problem, USAID/East Africa staff could still have scheduled sufficient
assessment activities to complete the required data quality assessments with the access
that was available.

A results-oriented management approach relies on USAID/Washington and field
managers using performance information to make their decisions. Specifically, quality


                                                                                           5
performance indicators and data help (1) ensure that USAID program and budget
decisions are as well-informed as practically possible, (2) support efficient use of USAID
resources, (3) meet requirements of Federal legislation, and (4) address the information
needs of USAID’s internal and external users, which includes senior management,
Office of Management and Budget (OMB), and Congress. However, sound decisions
require valid, current, and reliable information, and the benefits of this results-oriented
approach depend substantially on the quality of the performance information available.
Without data quality assessments, USAID/East Africa did not have reasonable
assurance that data quality met validity, timeliness, and reliability standards, the lack of
which could negatively affect decision making.

To ensure that future data quality meets the required standards, we are making the
following recommendations:

   Recommendation No. 1: We recommend that USAID/East Africa establish
   procedures to require that data quality assessments be completed for all
   indicators published in annual reports in accordance with USAID policies and
   procedures.

   Recommendation No. 2: We recommend that USAID/East Africa develop a
   schedule to complete data quality assessments for all assessments determined
   in this report to be overdue.




Photograph taken by a USAID/East Africa implementing partner in September 2005 of USAID-
supported oral polio vaccinations under the “Expanded Coverage of Essential Health Services”
Special Objective. (Medeho Health Post, Djibouti)




                                                                                          6
One Performance Management
Plan Was Not Approved
Summary: The performance management plan for Burundi had never been approved
since the development of the strategic plan, contrary to USAID guidance. This occurred
primarily because of restricted access into Burundi due to security concerns. Without a
proper performance management plan, however, USAID/East Africa was without a
critical tool for planning, managing, and documenting data collection. Additionally, the
Mission did not have assurance that it was maintaining the elements that are essential to
the operation of a credible and useful performance-based management system.

ADS 203 states that performance management plans shall be prepared for each
operating unit’s strategic plan.        Information included shall enable comparable
performance data to be collected over time, even in the event of staff turnover, and shall
clearly articulate expectations in terms of scheduling and responsibility. Specifically,
performance management plans shall provide a detailed definition of the performance
indicators that will be tracked; specify the source, method of collection and schedule of
collection for all required data; and assign responsibility for collection to a specific office,
team or individual.

TIPS No. 7, entitled Preparing a Performance Monitoring Plan1, states that a strategic
plan will have identified preliminary performance indicators, adding that the performance
management plan builds on this initial information. The definition of each indicator and
the unit of measure should be detailed enough to ensure that different people at different
times would collect identical types of data. The source for each indicator must also be
identified.

Comparable data must be gathered periodically to measure performance, with the
frequency of collection depending on the type of data. Performance management plans
can usefully provide the schedules and dates for data collection. The schedules should
consider management’s need for timely information for decision making. For each
performance indicator, the responsibility of the Mission for the timely collection of data
from their source should be clearly assigned to a particular office, team or individual.

A performance management plan for Burundi had never been approved since the initial
development of the strategic plan in fiscal year 2003. The reason for this delay was
primarily the result of security restrictions. Since 2003, Burundi has been recovering
from a civil war, and, as a result, travel was severely restricted. It was not until February
2005 that USAID/East Africa was able to gather all implementers and relevant USAID
personnel for a workshop in Burundi, which resulted in the current draft performance
management plan, which was dated May 2005. In the mean time, however, Burundi has
been included in a group of countries described as “fragile states.” Due to these and
other changes in development focus, a new strategic plan was completed in late fiscal
year 2005 and presented to USAID/Washington for approval. At the time of our audit,
approval had not yet been obtained. USAID/East Africa is planning to develop a new
performance management plan for the new strategic plan after it is approved.


1
  The original title referred to the “performance monitoring plan,” which has since been revised to
“performance management plan.”


                                                                                                 7
Without an approved performance management plan, USAID/East Africa lacked a critical
tool for planning, managing, and documenting data collection. The performance
management plan contributes to the effectiveness of the performance monitoring system
by assuring that comparable data will be collected on a regular and timely basis.
Without an approved plan, the Mission did not have assurance that it was maintaining
the elements that are essential to the operation of a credible and useful performance-
based management system. The absence of an approved performance management
plan may have also contributed to the data quality problems discussed in the next
section.

In order to provide the assurances afforded by a performance management plan, we are
making the following recommendation:

   Recommendation No. 3: We recommend that USAID/East Africa revise and
   approve the performance management plan for Burundi for its revised strategic
   plan in accordance USAID policies and procedures.

One Performance Indicator
Was Multi-Dimensional
Summary: One performance indicator was multi-dimensional contrary to USAID
guidance. This occurred because the initial data quality assessment was not completed
as thoroughly as it should have been. Consequently, the reported result was incorrect
and did not report the performance result that was defined for the indicator, which could
negatively affect both comparability from year to year and subsequent results-oriented
management decisions.

ADS 203.3.4.2, entitled Characteristics of Good Performance Indicators, states that
performance indicators should be unambiguous about what is being measured. In
addition to being precisely defined in the Performance Management Plan (PMP),
performance indicators should also be uni-dimensional, which means that they should
measure only one aspect of the program at a time. The ADS further states that results-
oriented management decisions require valid, current and reliable information, and the
benefits of this approach depend substantially on the quality of the performance
information.

One of the indicators in the Djibouti results framework, “Percentage Increases in
Enrollment and Attendance in Rehabilitated Schools,” was not uni-dimensional. As it
states, this indicator was measuring two aspects of the program—enrollment and
attendance—making it multi-dimensional contrary to USAID guidance. Enrollment and
attendance are two different and distinct aspects of the program. Enrollment can be
high while attendance could be low, as well as the opposite case with low enrollment
and high attendance. As far as what was actually measured, the reported results were
for enrollment only, and did not measure attendance.

This situation occurred because the initial data quality assessment was not completed
as thoroughly as it should have been. Although there was a data quality checklist in
place, it was not always completed before the annual report was prepared. Additionally,
the methodology of performing the data quality assessment was not documented in the
data quality checklist. As a result, there was a lack of reasonable assurance that data


                                                                                       8
quality is sufficient to report the performance result that was defined for the indicator,
negatively affecting both comparability from year to year and subsequent results-
oriented management decisions.

In order to ensure that the desired aspect of the program is accurately reported in the
Djibouti results framework, we are making the following recommendation:

   Recommendation No. 4: We recommend that USAID/East Africa revise the
   indicator for “Percentage Increases in Enrollment and Attendance in
   Rehabilitated Schools” in the Djibouti results framework so that it is uni-
   dimensional and complies with USAID policies and procedures.


Has USAID/East Africa reported activities in Burundi, Djibouti
and Somalia in accordance with USAID policies and
procedures?
Generally USAID/East Africa reported activities in Burundi, Djibouti and Somalia in
accordance with USAID policies and procedures. However, there were several
exceptions in data accuracy for the indicators tested.

Nevertheless, in reporting activities in Burundi, Djibouti and Somalia, USAID/East Africa
generally complied with USAID policies and procedures. For the three countries in
question, USAID/East Africa published annual reports, which included indicators and
results frameworks for the respective countries. These frameworks were based on
integrated strategic plans with approved strategic objectives and special objectives. As
a result, USAID/East Africa was not required to use the data base entitled Activities Not
Managed In-Country established for activities that are not part of a country strategic
plan.

However, performance results were not always supported and reported accurately in the
annual reports for Burundi and Djibouti for fiscal year 2005. This issue is discussed in
detail below.

Performance Results Were Not
Always Reported Accurately
Summary: Performance results were not always reported accurately or properly
supported contrary to USAID and Federal guidance. The principal cause for this was the
lack of adequate control and record keeping systems to ensure that sufficient data
quality was maintained and reported. Consequently, USAID/East Africa did not have
reasonable assurance that activities were either achieving or not achieving intended
results, which could negatively affect decision making.

Government Accountability Office’s (GAO) Standards for Internal Control in the Federal
Government states that all transactions and significant events need to be clearly
documented and that the documentation should be readily available. Additionally,
USAID’s Guidelines for Indicator and Data Quality, Tips No. 12, which summarizes the
key references on performance measurement quality found in various parts of USAID’s



                                                                                        9
Automated Directives System, states that an indicator’s validity, is affected by
measurement error, sampling error, and transcription error. Tips No. 12 further states
that USAID’s results-oriented management approach relies on both field and
Washington managers to inform their decisions with performance information. Sound
decisions require accurate, current, and reliable information, and the benefits of this
results-oriented approach depend substantially on the quality of the performance
information available.

For the results reported for fiscal year 2005 in the Burundi annual report, five out of
seven indicators tested did not have supporting documentation and one indicator (DP3
Coverage Rate) was incomplete. For results reported for fiscal year 2005 in the Djibouti
annual report, five out of the six indicators tested were either not adequately supported
or not accurately reported as measured against the indicator definitions.




Photograph taken by a USAID staff member in May 2005 of a USAID-supported improved water
source under the “Critical Needs Met for Vulnerable Groups” Strategic Objective. (Garowe,
Somalia)


Burundi

•   Hectares Under Improved Land Management: The reported results for this indicator
    were neither adequately supported nor was the methodology for computing results
    properly documented. The two implementing partners had not retained the original
    source documents used to compile results from the participating farmer associations.
    Additionally, one partner could not identify where one of its farmer associations was
    located during one of our site visits. For another site the kilometers of terracing
    reported by an association was different from what the partner had reported.



                                                                                      10
    Regarding methodology, the implementing partners had not documented how they
    estimated intervals of terraces2.

•   Number of Households Using Improved Agriculture Techniques: The reported
    results for this indicator were not adequately supported. The two implementing
    partners had not documented how the results were compiled nor did they retain
    supporting work papers for the reported results.

•   DPT33 Coverage Rate: The reported results for this indicator were not accurate.
    The implementing partner did not include both of the two provinces in which it was
    operating. The partner only reported results in one province, forgetting to include
    DPT3 coverage in the Muyinga Province in its results. The reported percentage
    coverage was 43 percent. With the inclusion of the Muyinga Province, it would have
    been over 50 percent.

•   Democracy and Governance indicators: For the three indicators under this strategic
    objective, the implementing partner did not document how the results for the
    indicators were compiled. The partner did not retain supporting work papers.

Djibouti

•   Percentage Increase in Enrollment and Attendance in Rehabilitated Schools: For
    this indicator the methodology used to compute the results was not clearly defined.
    The reported result was 27 percent, which was calculated on the previous year’s
    amount. However, the definition of the indicator does not state whether it was
    designed to be calculated as an increase over the prior year or on the 2003 baseline
    data. Since the targets are progressive (5, 10, and 30 percent for years 2004, 2005
    and 2006), a methodology calculated on the previous year would result in targets
    that would grow exponentially. Also, if based on the prior years’ amounts, the targets
    could not be estimated as accurately as those using the baseline year because the
    previous years’ actual amounts would not be known at the time of the target setting.
    Had the computation been made against the baseline data, the result would have
    been higher than reported. (Additionally, the result for fiscal year 2004 was
    miscalculated and misreported. Although it was computed off of the baseline data, it
    was misreported at 19.6 percent when it should have been 12 percent.)

•   Enhanced Local Capacity to Sustain Health Services: For this indicator, the reported
    result was not accurate. The reported amount was the whole number 11; however,
    the indicator is defined as a percentage of health posts, not a whole number. The
    reported result should have been 5 posts out of 27, or 18.5 percent.

•   Number of Training Modules Implemented: For this indicator, the reported result was
    not accurate as measured against the indicator definition. The reported amount was
    11 modules; however, only 5 modules were actually implemented in the reporting
    period. There were 12 modules that were developed for the targeted areas, which
    were incorrectly reported as 11 by the implementing partner. However, seven of the

2
  The distance or intervals between terraces are estimated in order to compute the number of
hectares under management.
3
  DPT3 is the acronym for three doses of immunizations for diphtheria, pertussis (whooping
cough) and tetanus.


                                                                                         11
    12 modules were not implemented until January 2006, subsequent to the end of the
    reporting period.

•   Percentage of Teachers Using New Teaching Strategies: For this indicator, we were
    unable to obtain adequate support. The reported result was 71 percent. However,
    the initial support provided by the monitoring and evaluation specialist for this
    amount indicated that this figure was derived from a survey taken in 2004, the
    previous reporting period. Although management believed that a 2005 survey was
    used for the reported result, this survey has not yet been located at either the
    implementing partner or USAID.

•   Percentage of Schools with Active School Community Partnership: For this indicator
    the reported result was either unsupported or inaccurate. The reported amount was
    57 percent, based on the reported 56 action plan proposals submitted by the 98
    communities in question. This amount, however, is not consistent with the definition
    of the indicator. The indicator is defined as the percentage of action plans that were
    developed and implemented. These 56 proposals, only 30 of which were eventually
    approved for implementation, were not actually implemented during the reporting
    period. In fact, none of the proposals had been implemented at the time of our field
    work.

There were various causes for the reporting problems noted above. The principal cause
for unsupported data was the lack of control systems and record keeping systems at the
implementing partner level. USAID/East Africa did not clearly require its partners to
retain supporting documentation for reported results, and therefore the partners did not
have consistent and complete record keeping systems. Concerning inaccurate results,
USAID/East Africa did not have an adequate control system to check the completeness
and accuracy of reported results from implementing partners, as well as confirm the
consistency of reported data with indicator definitions. A contributory cause was the
inconsistency between the reported data in quarterly reports by the implementing
partners and the annual reports published by USAID/East Africa. Although the partners
provided quarterly reports, these reports did not always contain the data required for the
results frameworks in the country annual reports. For one of the limited-presence
countries a USAID/East Africa staff member was required to make additional data
requests from the partners in order to complete its annual report. A final contributory
cause was the lack of data quality assessments as noted under the prior audit objective,
which may have helped to identify weakness in data quality had they been completed.

As stated previously, a results-oriented management approach relies on Washington
and field managers to use performance information to make their decisions. Specifically,
accurate performance indicators and data will help (1) ensure that USAID program and
budget decisions are as well-informed as practically possible, (2) support efficient use of
USAID resources, (3) meet requirements of Federal legislation, and (4) address the
information needs of USAID’s internal and external users, which includes senior
management, OMB, and Congress. However, sound decisions require accurate and
reliable information, and the benefits of this results-oriented approach depend
substantially on both the quality and the accuracy of the performance information
available. Without accurately reported results, USAID/East Africa did not have
reasonable assurance that activities were either achieving or not achieving intended
results, which could negatively affect decision making.



                                                                                        12
To ensure that future performance results are supported and accurately reported, we are
making the following recommendation:

   Recommendation No. 5: We recommend that USAID/East Africa establish
   procedures, which include a plan to make implementing partner quarterly reports
   more consistent with USAID/East Africa’s results framework, to ensure that
   performance results for indicators in limited-presence countries are supported
   and accurately reported in accordance with USAID policies and procedures.




                                                                                     13
EVALUATION OF
MANAGEMENT COMMENTS
In its response to our draft report, USAID/East Africa concurred with all five
recommendations. The Mission described the actions taken and those planned to be
taken to address our concerns. The Mission’s comments and our evaluation of those
comments are summarized below.

In response to Recommendation Nos. 1, 2, and 3, concerning data quality assessments
and performance management plans, USAID/East Africa concurred with the
recommendations and proposed planned actions, but was not able to establish target
completion dates at this time. Due to uncertainty regarding whether there will be an
annual report this year and the Agency’s intervening strategic framework reformulations,
USAID/East Africa proposed that it await further guidance from the Africa Bureau before
setting target dates and taking specific action. Based on the uncertainty surrounding the
reorganization, we agree that it would prudent to await guidance on the new results
framework and annual report prior to establishing target dates. Consequently, we
consider that a management decision has been reached on these recommendations.

In response to Recommendation No. 4, USAID/East Africa concurred with the
recommendation and provided evidence that it had revised the subject indicator so that it
now measures only enrollment, which is uni-dimensional. Consequently, we consider
final action to have been taken on Recommendation No. 4, and therefore consider it
closed upon the issuance of this report.

For Recommendation No. 5, USAID/East Africa concurred with the recommendation and
proposed establishing procedures as recommended for ensuring that reported results
are accurate and adequately supported. Although the Mission provided planned actions,
it was not able to furnish target completion dates due to a pending USAID reorganization
of its strategic framework. Based on the uncertainty surrounding the reorganization, we
agree that it would prudent to await guidance on the new results framework and annual
report prior to establishing target dates. Consequently, we consider that a management
decision has been reached on these recommendations.




                                                                                      14
                                                                              APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria conducted this audit in accordance with
generally accepted government auditing standards. The fieldwork was conducted at
USAID/East Africa in Nairobi, Kenya and USAID offices and implementing partners in
Djibouti and Burundi from January 31, 2006 to March 22, 2006. The scope was limited
to fiscal year 2005 activities reported in the 2006 annual reports for the three subject
countries—Burundi, Djibouti and Somalia.

For the two audit objectives, we examined contract, grant and cooperative agreements
with selected implementing partners in the subject countries. From these agreements,
we selected a judgmental sample of indicators that were included in the respective
country 2006 annual reports.

We examined the significant internal controls associated with the implementation of
performance management plans and the reporting of results. This examination included
monitoring and evaluating controls such as agreement requirements for reporting
results, implementing partner reports, activity site visits, and periodic data quality
assessments.     We examined specific procedures for collecting, recording, and
summarizing results from the service provider level through the entire system to the
annual report. Our examination included determining whether policy and procedures
were followed in determining the quality of reported data and whether the reported
data/results were accurate. The types of evidence included reviewing strategic plans
and special objectives, annual reports, performance management plans, data quality
assessments, trip reports, interviews with service providers, interviews with
implementing partners, interviews with USAID officials, primary and secondary source
documents, implementing partner reports, and various record-keeping systems.

Due to security reasons, we were unable to conduct site visits of implementing partners
and service providers in Somalia.

In conducting our fieldwork, we did not rely on, and therefore did not test, the validity of
any computer generated data. Additionally, we found no significant prior audit findings
affecting the areas examined during this audit.

Methodology
To accomplish our audit objectives, we interviewed cognizant officials from USAID and
implementing partners, reviewed applicable USAID and USAID/East Africa policies and
procedures, examined original primary and secondary source documents, and assessed
significant management controls and risk exposure relating to the monitoring and
evaluating activities, as well as reporting results. Management controls included the
execution of performance management plans, in addition to the periodic assessment of
the quality reported data. Additional controls included those for collecting, recording,
and summarizing results data from implementing partners and services providers, and
reporting those results through the annual report process.



                                                                                         15
                                                                              APPENDIX I



Due to the extensive variety of types of indicators and associated data, as well as the
complexity of performance monitoring plans, we did not set a materiality threshold for
answering the audit objectives.

From the indicator tables in the 2006 annual reports (for activities during fiscal year
2005) for the three subject countries, we examined seven of the nine indicators for
Burundi, six of the seven indicators for Djibouti, and three out of the seven indicators for
Somalia. Although the results are significant enough to establish the fact that there are
systemic problems, the results of our samples cannot be projected to the entire universe
of activity indicators.




                                                                                         16
                                                                            APPENDIX II



MANAGEMENT COMMENTS



Memorandum


To:            James Gaughran, Acting Regional Inspector General, Pretoria

From:          Cheryl Anderson, Regional Director, USAID/East Africa /s/

Subject:       USAID/East Africa Response to Regional Inspector General/ Pretoria
               draft report on the Audit of USAID Activities in Limited Presence
               Countries in Eastern African

Date:          July 12, 2006

This memo provides USAID/East Africa’s response to the subject draft report dated
June 14, 2006. The Mission concurs with the five recommendations and has taken
corrective action for recommendation 4, and made determination for recommendations
1, 2, 3, and 5.

USAID/EA is confident that the recommendations identified in the report, and the
corrective actions we will continue to undertake, will serve to both substantiate the
important accomplishments and impact we are achieving in this unique portfolio, and
further establish our limited presence country portfolio as a considered model for the
Agency. Responses are detailed below:

RIG/P Recommendation No. 1: We recommend that USAID/REDSO/ESA establish
procedures to require that data quality assessments be completed for all
indicators published in annual reports in accordance with USAID policies and
procedures.

USAID/EA concurs with this recommendation.

At present we have been advised to put all data quality assessments on hold
during the Agency reorganization (See Attachment 1: Guidance from Wade
Warren). It is not clear if there will be an annual report this year and, if so, what
form it will take. The Mission is committed to ensuring that data quality is high for
our results reporting. Once the new procedures are shared with us, and
Washington provides the new guidance and the go ahead to proceed, USAID/EA



                                                                                         17
                                                                             APPENDIX II


will develop procedures that will guide the Limited Presence Country teams on
data quality assessments in accordance with USAID policies and procedures.

RIG/P Recommendation No. 2: We recommend that USAID/REDSO/ESA develop a
schedule to complete data quality assessments for all assessments determined in
this report to be overdue.

USAID/EA concurs with this recommendation.

To the fullest extent possible and accounting for applicable security and access
constraints, USAID/EA/LPC units responsible for program management in Somalia,
Djibouti, and Burundi will ensure that overdue data quality assessments necessary to
substantiate indicators published in the 2006 Annual Report will be completed by
October 31, 2006.

RIG/P Recommendation No. 3: We recommend that USAID/REDSO/ESA revise
and approve the performance management plan for Burundi for its revised
strategic plan in accordance USAID policies and procedures.

USAID/EA concurs with this recommendation.

As noted in the audit report and accounting mainly for security concerns and the
Agency’s intervening strategic framework reformulations, the performance monitoring
plan for Burundi has not been approved since the initial development of the strategic
plan in fiscal year 2003. Since the audit was conducted, USAID has once again
significantly transformed its strategic framework and Burundi has already been re-
categorized (from a “fragile state” to a “developing country”).

USAID staff has been advised, rather than undertaking new PMPs at this time, to focus
on a few selected indicators (See Attachment 2: Wade Warren Notes to the Field, May
27, 2006). USAID Burundi has selected indicators both in the results matrices and in the
common program component indicators, and set targets for these indicators in the spring
of 2006. Subject to the Agency’s forthcoming guidance including programmatic and
performance monitoring parameters at the inter-agency level, USAID/Burundi will also
prepare a new performance monitoring plan within the time-frame that will later be
specified by USAID Washington.

RIG/P Recommendation No. 4: We recommend that USAID/REDSO/ESA revise the
indicator for “Percentage Increases in Enrollment and Attendance in Rehabilitated
Schools” in the Djibouti results framework so that it is uni-dimensional and
complies with USAID policies and procedures.

USAID/EA concurs with this recommendation.

“USAID/Djibouti has already revised the indicator identified in the audit report to conform
to the ADS 203.3.4.2 uni-dimensional requirement. The indicator is now “Percentage
Increases in Enrollment in Rehabilitated Schools.”

This refined indicator accounts for our understanding that enrollment is the most closely
traceable and attributable result to school rehabilitation efforts.



                                                                                         18
                                                                             APPENDIX II


While rehabilitation contributes to attendance, other factors such as teacher supply,
teaching methods, teaching materials, school management/administration, community
participation, etc. are key contributing factors to increased attendance. Cognizant of the
relevance of attendance to improved access to quality basic education, USAID has
initiated dialogue with the Government of Djibouti to include attendance in the Ministry of
Education’s Statistical Yearbook in order to monitor sustained access. In accordance
with anticipated, new guidance from USAID with regard to performance monitoring
systems under its new strategic framework and in the context of referenced dialogue
with the GORD, USAID/Djibouti will monitor attendance through the GORD
statistics. Under the scope of the current activities, USAID has no control over
attendance and therefore cannot include attendance as an annual report indicator.

RIG/P Recommendation No. 5: We recommend that USAID/REDSO/ESA establish
procedures, which include a plan to make implementing partner quarterly reports
more consistent with USAID/REDSO/ESA’s results framework, to ensure that
performance results for indicators in limited-presence countries are supported
and accurately reported in accordance with USAID policies and procedures.

USAID/EA concurs with this recommendation.

This is an important area that requires work by Strategic Objective Teams, Cognizant
Technical Officers and the Regional Acquisition and Assistance Office when articulating
the responsibilities of partners in the agreements, when outlining the expectations with
regard to quarterly reports and when overseeing at the activity level. USAID/EA, through
the Program Development and Implementation Office (PDI), will continue to provide
monitoring and evaluation guidance and services to LPC teams, and will assist teams to
redesign results frameworks in accordance with the new procedures once we receive
the new guidance from Washington. USAID/EA will also establish procedures, which
include a plan to make implementing partner quarterly reports more consistent with
USAID/EA’s results framework upon receiving the new guidelines.


USAID/EA Recommendation:
Based on the above, USAID/EA requests closure of recommendation 4 upon issuance of
the report since corrective action has been taken.

I greatly appreciate the cooperation and courtesy extended to my staff by the RIG/P
team and look forward to the final report.




                                                                                        19
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
